GIBSON DUNN

Gibson, Dunn & Crutcher LLP

1050 Connecticut Avenue, N.W.
Washington, D.C. 20036-5306
www .g1bsondunn .com

Lucas C. Townsend
Direct: +1 202.887.3731
Fax: +1 202.530.4254
LTownsend@gibsondunn.com

February 3, 2020
VIA HAND DELIVERY AND ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Territory of Guam, et al. v. Arnold Davis , No. 19-827

Dear Mr. Harris:
I am counsel of record for respondent Arnold Davis in the above-captioned matter.
The petition for a writ of certiorari in this case was docketed on December 31 , 2019, a
response to the petition was requested on January 21 , 2020, and the opposition is currently
due on February 20, 2020. We respectfully request, under Rule 30.4 of the Rules of this
Court, a 30-day extension of time to and including March 23 , 2020 (March 21 is a Saturday),
within which to file a brief in opposition.
This extension is requested to allow adequate time to confer with Mr. Davis and
prepare an adequate response to the petition in light of several significant professional
obligations I have in matters pending before this Court and other courts, as well as to
consider and, if necessary, respond to any briefs of amici curiae filed in this case.

~-=t
Lucas C. Townsend

cc:

Michael F. Williams, Esq.
Counsel for Petitioners

BeiJ1ng · Brussels· Centu ry City · Dallas· Denver· Dubai· Frankfurt · Hong Kong· London · Los Angeles · Munich
New York· Orange County· Palo Alto· Paris· San Francisco· Sao Paulo · Singapore· Washington, D.C.

